CASE No.

In The Supreme Court of the United States

JAMES SAYLOR,
Petitioner,
v.
TAGGART BOYD,
Respondent.
On Petition for Writ of Certiorari
to the
United States Court of Appeals
for the Eighth Circuit
CERTIFICATE OF SERVICE
Brandon Sample
Brandon Sample PLC
P.O. BOX 250
Rutland, Vermont 05702
Tel: 802-444-4357
Fax: 802-779-9590
Email: Brandon@brandonsample.com
Counsel for Petitioner

I hereby CERTIFY, pursuant to Supreme
Court Rule 29.5(b), that on this 21st day of January,
2021, true and correct copies of the Petition for Writ
of Certiorari were mailed via Fed Ex to the Clerk,
United States Supreme Court, One First Street,
N.E., Washington, D.C. 20543; and to the Nebraska
Attorney General, 2115 State Capitol, Lincoln, NE
68509. All parties required to be served were served.
Respectfully submitted,
/s/Brandon Sample
Brandon Sample
Brandon Sample PLC
P.O. BOX 250
Rutland, Vermont 05702
Tel: 802-444-4357
Fax: 802-779-9590
Email: Brandon@brandonsample.com
Counsel for Petitioner

